           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  FOLLOW-UP: SUPPLEMENTAL SECURITY
 INCOME OVERPAYMENTS TO RECIPIENTS
       IN TITLE XIX INSTITUTIONS


      July 2011   A-08-10-10138




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                SOCIAL SECURITY
MEMORANDUM

Date:      July 11, 2011                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: Supplemental Security Income Overpayments to Recipients in Title XIX
           Institutions (A-08-10-10138)


           OBJECTIVE
           Our objectives were to (1) assess overpayments to Supplemental Security Income (SSI)
           recipients living in Title XIX institutions and (2) determine the status of corrective actions
           the Social Security Administration (SSA) had taken to address recommendations in our
           June 2006 report, Supplemental Security Income Overpayments to Recipients in
           Title XIX Institutions (A-08-06-16024).

           BACKGROUND
           SSI payments are available under Title XVI of the Social Security Act to people who are
           aged, blind, or disabled and have limited income and resources.1 Residence in a
           Title XIX institution 2 can affect an SSI recipient’s eligibility and/or payment amount.
           Specifically, when SSI recipients are permanent residents of a Title XIX institution for a
           full calendar month and Medicaid pays over 50 percent of the costs for that care, the
           maximum SSI payment is limited to $30 per month. The payment reduction is
           applicable beginning with the first full month of permanent residence. 3

           The Social Security Domestic Employment Reform Act of 1994 4 requires that certain
           Title XIX institutions (for example, nursing homes and other long-term care
           facilities—but not hospitals) report admissions of SSI recipients to SSA within 2 weeks
           of their admission. When SSA does not receive timely notification of an SSI recipient’s
           admission, it may continue issuing payments for months after the month of admission.
           To detect and stop overpayments, SSA conducts a monthly match with the Centers for
           Medicare and Medicaid Services to identify SSI recipients’ admissions to nursing
           1
               Social Security Act § 1611 (a)(1), 42 U.S.C. § 1382(a)(1).
           2
               These include hospitals, nursing homes, psychiatric institutions, and intermediate care facilities.
           3
               20 C.F.R. § 416.414.
           4
               Pub. L. No. 103-387, § 6, 108 Stat. 4071, § 6 (1994).
Page 2 - The Commissioner


homes. This match produces D8 diary alerts that SSA sends to field offices for
processing. 5 However, to a large extent, SSA relies on recipients and representative
payees to self-report residency in a Title XIX institution. 6 In addition, SSA requires that
its field offices work with institutions in their service areas to facilitate the flow of
information regarding SSI recipients.7

To achieve our audit objectives, we visited three SSA field offices and four nursing
homes, and contacted five other Title XIX institutions, to obtain an understanding of
their procedures for reporting SSI recipients’ admissions. We also determined whether
these field offices improved their communication with institutions. In addition, we
identified a population of 27,183 recipients whom SSA overpaid $200 or more because
they were admitted to a Title XIX institution in Calendar Year (CY) 2009.
Figure 1 shows the CY 2009 overpayment ranges, associated number of recipients, and
total overpayments.

                      Figure 1: Overpayments in CY 2009 Population
          Low Range      High Range          Number of Recipients   Total Overpayments
             $200.00        $500.00                 4,316                $1,560,340
              500.01       1,000.00                 9,932                 6,666,748
            1,000.01       2,000.00                 9,146                13,588,341
            2,000.01       8,000.00                 3,789                13,035,026
                     TOTAL                        27,183               $34,850,455

From this population, we randomly selected a sample of 50 SSI recipients to determine
the type of institution entered and recovery action taken by SSA. Further, we identified
a population of 105,321 D8 diary alerts SSA sent to field offices from March 1, 2009
through February 28, 2010. From our population, we randomly selected 275 D8 diary
alerts to determine whether an overpayment occurred and, if so, the amount.
Appendix B contains a detailed discussion of our scope and methodology.




5
    SSA, POMS, SI 02310.064 A (November 19, 2003).
6
    SSA, POMS, SI 02301.005 A (November 5, 2007).
7
    SSA, POMS, SI 00520.730 A (June 13, 1996).
Page 3 - The Commissioner


RESULTS OF REVIEW
We are encouraged that SSA had taken steps to reduce and recover overpayments to
SSI recipients living in Title XIX institutions. Specifically, SSA improved its overpayment
recovery efforts; reduced the time it overpaid SSI recipients in Title XIX institutions; and
made some improvement in processing D8 diary alerts timely. Despite SSA’s efforts,
since our 2006 review, the Agency had detected an additional $191 million in
overpayments to these recipients.8 These overpayments generally occurred because
Title XIX institutions did not report SSI recipients’ living arrangement changes to SSA,
as required by law. Additionally, although we noted improvements from our previous
audit, field office personnel did not always process D8 diary alerts timely.

We recognize that SSA’s ability to identify SSI recipients’ admissions depends on
others’ prompt reporting. We also realize that steps SSA may take to facilitate the flow
of information regarding the SSI population cannot eliminate all instances of unreported
changes in living arrangements. Nonetheless, we believe there are opportunities for
SSA to further prevent and detect overpayments to SSI recipients. For example, we
believe SSA should provide more oversight to field offices that consistently do not
process D8 diary alerts timely; increase the frequency with which field offices
communicate with Title XIX institutions; and explore other methods that would enhance
the flow of information regarding the SSI population.

IMPROVEMENTS HAD BEEN MADE

Since our last review, SSA had improved its recovery efforts for overpayments resulting
from SSI recipients’ admissions to Title XIX institutions. Of the 50 overpayments we
reviewed, SSA collected and pursued recovery of more overpayments and deemed
fewer uncollectible, as shown in Figure 2.

                     Figure 2: SSA’s Overpayment Recovery Activities
                                                                             Percentage of Total
                                                                                             9
                                                                               Overpayments
                                              CY 2009 Overpayment
     Overpayment Recovery Activities                Amounts                  CY 2009       CY 2004
    Total Collected                                  $28,544                   43.8          32.2
    Recovery Action in Progress                         31,567                  48.5          43.9
                                                                 10
    Not Collected                                        4,997                  7.7           23.9
    Total Overpayments                                 $65,108                100.0          100.0


8
 We obtained the data used to calculate this figure from the Supplemental Security Record as of
April 26, 2010.
9
    We reviewed 50 overpayments in our CY 2009 sample and 275 in our CY 2004 sample.
10
   For these CY 2009 overpayments, an SSA district office authorized the waiver of four overpayments,
totaling $3,220, and an SSA field office decided two were uncollectible, totaling $1,777. For the two
uncollectible overpayments, the recipients were deceased.
Page 4 - The Commissioner


Similar to our previous review, we determined that nursing homes accounted for the
majority of overpayments in our sample. 11 However, as shown in Figure 3, SSA
reduced the time it overpaid SSI recipients who resided in Title XIX institutions. For
example, contrary to our prior audit, our current sample did not contain a recipient
overpaid more than 12 months.12 In addition, SSA detected more overpayments in the
first 3 months of occurrence. In fact, SSA overpaid the majority of recipients 3 months
or less.

                 Figure 3: Months SSI Recipients in Title XIX Institutions
                            Were Overpaid in CYs 2004 and 2009
               10 to 12     Over 12                                7 to 9      10 to 12
               months       months                                months       months
        7 to 9   3%           2%                                    6%           2%
       months
         8%                                              4 to 6
                                                        months
      4 to 6                                              15%
     months
       23%                                1 to 3
                                         months                                             1 to 3
                                           64%                                             months
                                                                                             77%
                    CY 2004                                                 CY 2009


Between 2005 and 2009, total overpayments to SSI recipients residing in Title XIX
institutions increased by 16 percent. 13 This was due, in part, to an increase in the
average monthly payment amount and number of individuals receiving SSI. During this
time, the average monthly SSI payment increased from $439 to $499, and SSI
enrollment increased from 7.1 to 7.7 million recipients. 14




11
  In our previous review of CY 2004 overpayments, we determined that nursing homes accounted for
84 percent of overpayments; based on our current review of CY 2009 overpayments, nursing homes
accounted for 80 percent.
12
  SSA OIG, Supplemental Security Income Overpayments to Recipients in Title XIX Institutions
(A-08-06-16024), p.5, June 26, 2006. The overpayment sample consisted of CY 2004 data.
13
  Overpayments to SSI recipients residing in Title XIX institutions totaled $34.7 million in CY 2005 and
$40.3 million in CY 2009.
14
  According to SSA, 2 percent of its SSI recipients resided in Title XIX institutions during 2005 and
2009. SSA, SSI Annual Statistical Report, 2005, (May 2007) and SSA, SSI Annual Statistical Report,
2009, (September 2010).
Page 5 - The Commissioner


OBSTACLES CONTINUED TO HINDER SSA FROM PREVENTING
OVERPAYMENTS

While SSA made efforts to reduce and recover overpayments to SSI recipients in
Title XIX institutions, it had detected over $191 million in overpayments to these
recipients since our prior review. Based on our current review of 50 overpayments, it
took SSA from 4 to 12 months to detect that it overpaid 23 percent of the sample
recipients, as shown in Figure 3. Overpayments to these recipients continued because
SSI recipients or their representative payees did not always report changes in living
arrangements; institutions did not always routinely report recipients’ admissions; or field
office personnel did not always process D8 diary alerts timely.

Recipients and Representative Payees Did Not Report Changes in Living
Arrangements

Although SSA policy requires that recipients and representative payees report
admissions to Title XIX institutions, 15 field office personnel in our prior and current
reviews told us individuals rarely reported such changes in their living arrangement.
Personnel at one field office told us that when individuals do self-report, it is generally
because of a change of address. Having this information sooner would allow SSA to
make prompt adjustments to benefit payments and help reduce overpayments.

In our 2006 report, we recommended that SSA reemphasize to SSI recipients and
representative payees the importance of reporting admissions to Title XIX institutions.
In response, SSA issued Administrative Message (AM)-06128, 16 which reminded
employees to focus on SSI recipients’ and/or their representative payees’ reporting
responsibilities when interviewing them. To communicate SSI recipients’ reporting
requirements further, SSA included an electronic booklet 17 on its Website that lists
reportable events, such as entering or leaving an institution.




15
     SSA, POMS, SI 02301.005 A and B (November 5, 2007).
16
  SSA, AM-06128, Reminder Items on Preventing Overpayments to SSI Recipients Who Enter Title XIX
Institutions—One-Time-Only Instructions, (June 6, 2006).
17
  SSA Publication No. 05-11011, What You Need to Know When You Get Supplemental Security Income
(SSI), revised June 2010.
Page 6 - The Commissioner


Title XIX Institutions Did Not Routinely Report Admissions

Field office personnel told us that Title XIX institutions rarely, if ever, reported SSI
recipient admissions.18 Field office personnel stated that this occurs because reporting
requires additional work, and some institutions have a high turnover rate, which can
result in staff being unaware of the reporting requirement. In addition, SSA has no legal
authority to levy fines and penalties for not reporting.

In our 2006 review, the staff at 58 percent of the Title XIX institutions we contacted was
unaware of the requirement to report SSI recipient admissions to SSA within 2 weeks, 19
and based on our current review, 44 percent of staff was unaware. 20 Staff members we
interviewed at two institutions told us they only notified SSA of these admissions if the
recipient signed a consent form allowing them to report the event. Upon learning of the
legal requirement, one nursing home indicated it would begin notifying SSA of these
admissions.

Field Office Personnel Did Not Always Process D8 Diary Alerts Timely

Based on our sample, we concluded that SSA field office personnel processed
96 percent 21 of D8 diary alerts timely—a 3-percent improvement since our prior review.
However, there are still a small number of D8 diary alerts, 4 percent, as shown in
Figure 4, that field office staff did not process timely. Although SSA could not determine
the cause for the delayed processing, one field office did not process one D8 diary alert
for up to 4 months. The average processing time for these D8 diary alerts was
2 months (excluding a 30-day grace period), which resulted in an average overpayment
of about $909. 22




18
  SSA staff from two field offices stated that nursing homes and hospitals most often do not report SSI
recipients’ admissions to Title XIX institutions. However, staff members at another SSA field office
indicated hospitals were more problematic in their area.
19
  The Social Security Domestic Employment Reform Act of 1994, Pub. L. No. 103-387, § 6, 108 Stat.
4071, § 6 (1994).
20
  In our 2006 review, 14 of the 24 institutions we contacted were not aware of the legal requirement to
report SSI recipient admissions. In our current review, four of the nine institutions we contacted were not
aware of the reporting requirement.
21
  This percentage includes D8 diary alerts with overpayments that SSA processed timely and those
without overpayments.
22
  As in our previous review, to determine whether SSA processed D8 diary alerts promptly, we added
30 days to the date the field office received the alert. We calculated overpayments beginning with the
subsequent month. Additionally, if SSA did not process the D8 diary alert by the recurring cutoff date
each month, we did not consider the next payment an overpayment.
Page 7 - The Commissioner


                        Figure 4: Comparison of D8 Diary Alerts Processed
                                                                         Current         Prior
                              D8 Diary Alerts                            Review 23      Review 24

         Total Alerts                                                       105,321        115,988

         Percentage of Sample Alerts Not Processed Timely                        4.0            7.0

         Estimate of Alerts Not Processed Timely                              3,830           7,592

         Estimate of Overpayments                                       $3.5 million    $5 million

While we are encouraged that SSA processed most D8 diary alerts timely, delays in
processing even a small percent of these alerts resulted in SSA overpaying millions of
dollars to SSI recipients. In our previous report, we estimated that almost $5 million in
overpayments resulted from field office personnel not processing D8 diary alerts timely.
In our current review, we estimate that the resulting overpayments totaled
approximately $3.5 million (see Appendix B, Table 1, for our sample results and
projection).

Although SSA procedures require clearance of D8 diary alerts, SSA policy does not
specify a timeframe for personnel to process them. 25 In our 2006 report, we
recommended that SSA establish methods by which field office personnel should
promptly resolve D8 diary alerts resulting from recipients’ admissions to Title XIX
institutions and monitor compliance with these procedures. In response, SSA stated
that it released AM-06128, which included a reminder to field offices to monitor diary
workloads through the SSI Diary Workload Website on ChiNet 26 to ensure the staff
works these diaries in a timely manner. According to field office supervisors we
interviewed, they ensure that the staff processes D8 diary alerts within 30 days or
before month-end. However, if field office personnel do not process D8 diary alerts
timely, SSA will continue contributing to overpayments. Should the situation remain
unchanged, we estimate that, over the next year, SSA will not process about
3,800 D8 diary alerts timely, resulting in approximately $3.5 million in additional
overpayments.27
23
  In our current review, we determined that SSA did not process 10 (4 percent) of 275 alerts timely,
resulting in $9,086 in overpayments. These alerts occurred from March 1, 2009 through
February 28, 2010.
24
  In our prior review, we determined that SSA did not process 18 (7 percent) of 275 alerts timely,
resulting in $11,757 in overpayments. These alerts occurred from August 2, 2004 through
August 1, 2005.
25
     SSA, POMS, SI 02310.064 D (November 19, 2003).
26
     ChiNet is an SSA Intranet site maintained in the Chicago Region.
27
 We based this estimate on the projected number of alerts and amount of overpayments made because
SSA did not timely process D8 diary alerts during our audit period.
Page 8 - The Commissioner


Given that SSA considers processing D8 diary alerts to be one of its highest priority
post-eligibility workloads, 28 we believe it should require that higher-level management
ensure field offices process these alerts timely. For example, Area Directors or regional
offices could periodically review the field offices’ timeliness in processing D8 diary
alerts. If management identifies trends of noncompliance, it should provide training
and/or additional oversight, as needed.

OPPORTUNITIES TO REDUCE OVERPAYMENTS

Although SSA has no legal authority to levy fines and penalties for those who do not
report SSI recipients’ admissions to Title XIX institutions, we believe SSA has the
potential to reduce and recover overpayments by expanding its current activities. While
we acknowledge that SSA’s resources are limited, we believe taking such steps will also
help prevent overpayments, thereby reducing resources required for debt collection
efforts.

Enhance Communication with Title XIX Institutions

To facilitate the flow of information regarding the SSI population, SSA policy instructs
field offices to work closely with Title XIX institutions.29 In our prior review, we
recommended that SSA remind field office personnel of their responsibility to
(1) maintain ongoing contact with Title XIX institutions in their service area; (2) use
regular visits to encourage cooperation; and (3) establish procedures for institutions to
report promptly on events that affect eligibility and payment determination. In response,
SSA stated it had issued AM-06128, 30 which reminded employees of these
responsibilities.

During our current review, field office representatives we interviewed stated that they
generally only contacted Title XIX institutions to confirm D8 diary alert information.
Additionally, several institutions stated they did not have procedures for reporting SSI
recipient admissions and, in fact, had difficulty making contact with their local SSA
office.

Given that significant overpayments continue to occur because Title XIX institutions do
not always promptly report SSI recipient admissions, we believe SSA should improve its
liaison efforts with these entities. We realize the Agency has limited resources and
many competing priorities. However, in our opinion, investing more in outreach efforts
could decrease overpayments and time spent recovering them. For example, field
office personnel told us that SSI recipients have resided in Title XIX institutions up to
4 months before the field office received the D8 diary alert. Had the field office’s liaison
efforts with the Title XIX institutions been more frequent and effective, staff at these
institutions would be familiar with the requirement to notify SSA of the recipients’
28
     SSA, POMS, SI 02310.005 C.2 (May 15, 2007).
29
     SSA, POMS, SI 00520.730 A (June 13, 1996).
30
  SSA, AM-06128, Reminder Items on Preventing Overpayments to SSI Recipients Who Enter Title XIX
Institutions—One-Time-Only Instructions, (June 6, 2006).
Page 9 - The Commissioner


admissions—and with the most efficient method of communicating such information to
the appropriate SSA staff. As such, SSA could have avoided the 4-month overpayment
and associated recovery efforts. Accordingly, we believe liaisons should (1) increase
contact with institutions, (2) inform them of reporting requirements, and (3) provide them
with a direct contact number.

Furthermore, the staff at most Title XIX institutions we contacted told us that having a
uniform reporting mechanism, such as an SSA Website, would enhance the reporting
process. While we recognize the potential benefits of a Web-based application, we also
understand there could be security issues involved with implementing this application.
As such, we believe SSA should determine the costs and benefits of implementing a
Website for reporting these admissions. In the interim, SSA field offices should
encourage institutions to use current reporting techniques, such as a secure facsimile
line, to notify SSA of recipient admissions.

CONCLUSION AND RECOMMENDATIONS
We are encouraged SSA has made progress in reducing and recovering overpayments
to SSI recipients residing in Title XIX institutions. We recognize that SSA cannot
prevent all overpayments, in part because it has no legal authority to levy fines and
penalties for those who do not report these admissions. We also realize that SSA is
challenged with managing limited resources with many competing priorities. However,
we believe SSA should take additional steps to prevent recipients’ unreported living
arrangement changes and, once detected, promptly adjust their monthly payments.
Such an investment in resources could help the Agency prevent millions of dollars in
SSI overpayments—and reduce SSA resources required to recover these
overpayments.

Accordingly, we recommend that SSA:

1. Periodically monitor field offices’ timeliness in processing D8 diary alerts and provide
   training and/or additional oversight to those offices that have difficulty processing
   these alerts timely.

2. Increase its frequency of communication with Title XIX institutions. While conducting
   these visits and/or contacts, field office personnel should inform the institutions of
   reporting requirements. In addition, these offices should ensure they provide
   institutions with any necessary contact information and instructions to facilitate their
   timely reporting.

3. Determine the costs and benefits of implementing a Website where Title XIX
   institutions can report SSI recipient admissions. Meanwhile, remind and encourage
   Title XIX institutions to use current reporting techniques, such as using a secure
   facsimile line, to notify the Agency of SSI recipient admissions.
Page 10 - The Commissioner


AGENCY COMMENTS AND OIG RESPONSE
SSA disagreed with all of our recommendations. Despite its disagreement with our
recommendations, SSA proposed corrective actions to each of our findings. The
Agency’s comments are included in Appendix C.

•   In response to Recommendation 1, the Agency stated that its current procedures
    were sufficient to ensure timely processing of D8 diary alerts. However, the Agency
    agreed to issue a reminder to its personnel regarding the importance of taking
    prompt action on these alerts.

    OIG Response: We agree that the Agency’s procedures ensure timely action on
    96 percent of D8 diary alerts. However, delays in even a small percent of alerts
    equates to millions of dollars in overpayments. Our recommendation simply called
    on the Agency to periodically check field office performance and provide training
    and/or additional oversight, if necessary. Instead, SSA plans to issue a reminder to
    the field offices, which is the same action it took in response to our last report. We
    believe the Agency should do more than issue a policy reminder—or accept the
    status quo.

•   In response to Recommendation 2, SSA stated that it did not have sufficient
    resources to increase communication with Title XIX institutions. Additionally, it
    stated that SSA personnel provide information regarding reporting requirements
    during discussions with Title XIX institutions and on its Internet site. In lieu of our
    recommended actions, SSA agreed to issue a policy reminder to field office
    managers to ensure that Title XIX institutions had the correct contact information for
    the offices.

    OIG Response: While we acknowledge SSA is challenged with managing
    competing priorities, we determined during our current and prior reviews that it was
    not meeting existing policy requirements. That is, SSA liaisons were not always
    maintaining ongoing contact or making regular visits with, or establishing procedures
    for, institutions in their service areas. As such, we are not asking the Agency to
    perform more than that established in its policy. In addition, despite its
    disagreement with Recommendation 2, in response to Recommendation 3, SSA
    stated it will continue educating Title XIX institutions and instructing them to use
    existing reporting techniques during its regular contacts. By performing regular
    contacts, which would be an increase over current liaison efforts, the Agency is
    implementing our recommendation.
Page 11 - The Commissioner


•   In response to Recommendation 3, the Agency stated that a Web application for
    reporting Title XIX entries would duplicate current requirements for reporting to the
    Centers for Medicare and Medicaid Services and would not alleviate institutions’
    noncompliance. However, SSA stated it will explore the possibility of working with
    the States to identify all Title XIX institutions in their jurisdictions with the objective of
    sending them a reminder of their reporting responsibilities. Meanwhile, the Agency
    will continue to educate Title XIX institutions and instruct them to use existing
    reporting techniques during the Agency’s regular contacts.

    OIG Response: We encourage SSA to reconsider its declination to examine a
    Web-based solution for Title XIX institutions to report SSA recipients’ admissions.
    As SSA moves services online, we believe such an option should be explored.

We will monitor the Agency’s progress in addressing its corrective actions and make
further recommendation in future audits.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                 Appendix A

Acronyms
AM            Administrative Message
C.F.R.        Code of Federal Regulations
CY            Calendar Year
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C.        United States Code
                                                                                        Appendix B

Scope and Methodology
To accomplish our objectives, we:

•     Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
      and procedures as well as other relevant Federal laws and regulations.

•     Reviewed our June 2006 report, Supplemental Security Income Overpayments to
      Recipients in Title XIX Institutions 1 (A-08-06-16024).

•     Visited two field offices in Florida and one field office in Alabama. During our site
      visits, we interviewed staff to determine their procedures for processing D8 diary
      alerts that identify Supplemental Security Income (SSI) recipients’ admissions to
      nursing homes. We also determined whether field offices had a liaison responsible
      for coordinating with institutions in their service area.

•     Visited four nursing homes and contacted five other Title XIX institutions 2 to obtain
      an understanding of their procedures for reporting SSI recipients’ admissions and to
      determine whether field offices had established a liaison responsible for coordinating
      with them. We also determined whether the institutions were aware of their
      reporting responsibilities.

Also, to accomplish our objectives, we reviewed two separate samples.

Sample of SSI Overpayments to Recipients in Title XIX Institutions

We obtained a universe of 27,183 SSI recipients who were overpaid $200 or more
because of admission to a Title XIX institution in Calendar Year 2009. From this
universe, we randomly selected a sample of 50 SSI recipients.3 We used SSA’s
Modernized Supplemental Security Income Claims System, the Centers for Medicare
and Medicaid Services’ Nursing Home Compare Website, and other Websites to
determine the type of institution. We also used SSA’s Supplemental Security Record to
determine the type of recovery action for these overpayments.


1
    These include hospitals, nursing homes, psychiatric institutions, and intermediate care facilities.
2
 Of the four nursing homes we visited, three were in the Miami, Florida, area and one was in
Birmingham, Alabama. The five other Title XIX institutions we contacted were in Chicago, Illinois;
Tarzana, California; and Brownsville, Texas.
3
  When we originally obtained our data extract on March 30, 2010, the Supplemental Security Record for
all sample items reflected a living arrangement D code, which is residence in a Title XIX institution.
However, when we queried the Supplemental Security Record on April 14, 2010, one sample item no
longer reflected living arrangement D.


                                                      B-1
Sample of D8 Diary Alerts that Identify SSI Recipients’ Admissions to Nursing
Homes

We obtained a universe of 105,321 D8 diary alerts that identified SSI recipients’
admissions to nursing homes. SSA sent these D8 diary alerts to the servicing field
offices from March 1, 2009 through February 28, 2010. From this universe, we
randomly selected a sample of 275 D8 diary alerts. For each of the 275 D8 diary alerts,
we reviewed SSA’s Supplemental Security Record to determine whether an
overpayment occurred, and if so, how much resulted from SSA not processing the
D8 diary alert timely.

To determine whether SSA processed D8 diary alerts timely, we added 30 days to the
date the field office received the D8 diary alert. Additionally, if SSA did not process the
D8 diary alert by the recurring cutoff date each month, we did not consider the next
payment an overpayment. We calculated overpayments beginning with the subsequent
month.

            Table 1: Sample Results and Projection on D8 Diary Alerts

                 SAMPLE ATTRIBUTE AND VARIABLE APPRAISAL
 Total Population of D8 Diary Alerts Sent to Field Offices from March 1, 2009
 Through February 28, 2010                                                        105,321
 Sample Size                                                                          275
                                  Attribute Projections
 Number of Alerts in Sample SSA Did Not Process Timely                                 10
 Estimate of Alerts in Population SSA Did Not Process Timely                         3,830
 Projection—Lower Limit                                                              2,094
 Projection—Upper Limit                                                              6,410
                                   Variable Projections
 Overpayment Amounts in Sample Resulting from SSA not Processing Alerts
                                                                                   $9,086
 Timely
 Estimate of Overpayment Amounts in Population Resulting from SSA
                                                                                $3,479,798
 Not Processing Alerts Timely
 Projection—Lower Limit                                                         $1,231,310
 Projection—Upper Limit                                                         $5,728,287
 Projections made at the 90-percent confidence level.




                                            B-2
Our review of internal controls was limited to gaining an understanding of SSA’s policies
and procedures regarding SSI recipients in Title XIX institutions. We relied primarily on
the Supplemental Security Record to complete our review and determined that the data
were sufficiently reliable to meet our audit objectives. We did not verify the
completeness or test the accuracy of information submitted on the D8 diary alerts. We
performed our audit at the Office of Audit in Birmingham, Alabama, and at selected SSA
field offices and Title XIX institutions in Birmingham, Alabama, and the Miami, Florida,
area.

The SSA entities reviewed were the Offices of the Deputy Commissioners for
Retirement and Disability Policy and Operations. We conducted our work from
May 2010 through January 2011 in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                           B-3
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      June 23, 2011                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis     /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Follow-up: Supplemental Security Income
           Overpayments to Recipients in Title XIX Institutions” (A-08-10-10138)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FOLLOW-UP: SUPPLEMENTAL SECURITY INCOME
OVERPAYMENTS TO RECIPIENTS IN TITLE XIX INSTITUTIONS” (A-08-10-10138)

You state that since 2004, we have “made progress in reducing and recovering overpayments to
SSI recipients residing in Title XIX institutions.” You also “recognize that SSA cannot prevent
all overpayments from occurring” and that we are “challenged with managing limited resources
with many competing priorities.” We will continue our efforts to make improvements within
those constraints.

We offer the following responses to your recommendations.

Recommendation 1

Periodically monitor field offices’ timeliness in processing D8 diary alerts and provide training
and/or additional oversight to those offices that have difficulty in processing the alerts timely.

Response

We disagree. We already have procedures in place to monitor the D8 diary alerts, and we
process more than 96 percent of those alerts timely. We will continue to encourage field office
(FO) managers to utilize the Supplemental Security Income Diary Workload website to monitor
this activity. In addition, we will release a reminder to all field offices about the importance of
processing D8 diary alerts timely.

Recommendation 2

Increase its frequency of communication with Title XIX institutions. While conducting these
visits and/or contacts, field office personnel should inform the institutions of reporting
requirements. In addition, these offices should ensure these institutions are provided with any
necessary contact information and instructions to facilitate their timely reporting.

Response

We disagree. We do not have sufficient resources to increase the frequency of communication
with Title XIX institutions. In discussions with these institutions, we explain our reporting
requirements and provide a hard copy of “A Guide to Supplemental Security Income for Groups
and Organizations,” which is also available on our website.

We plan to issue a policy reminder to all FO managers to ensure Title XIX institutions have the
correct agency contact information.




                                               C-2
Recommendation 3

Determine the costs and benefits of implementing a Website where Title XIX institutions can
report SSI recipient admissions. Meanwhile, remind and encourage Title XIX institutions to use
current reporting techniques, such as using a secure facsimile line, to notify the agency of SSI
recipient admissions.

Response

We disagree. We believe a website would be duplicative of the current reporting requirements to
the Centers for Medicare and Medicaid Services and would not alleviate institutions’
noncompliance with reporting requirements. As you note, institutions are not always aware of,
and sometimes misinterpret those requirements. Therefore, we will explore the possibility of
working with the States to identify all Title XIX institutions within their jurisdiction with the
objective of sending them a reminder of their reporting responsibilities. Meanwhile, we will
continue to educate Title XIX institutions and instruct them to utilize existing reporting
techniques during our regular contacts.




                                              C-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director

   Theresa Roberts, Audit Manager

Acknowledgments

In addition to those named above:

   Janet Matlock, Senior Auditor

   Neha Smith, Audit Manager

   Jordan Sherman, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-10-10138.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
